No.

IN THE
SUPREME COURT OF THE UNITED STATES

ERIC WESTRY—PETITIONER
VS.
VICTOR LEON—RESPONDENT
PROOF OF SERVICE
I, Eric Westry do swear or declare that on this date, 11 SEPTEMBER 2021, as
required by Supreme Court Rule 29 I have service the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS AND PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or the party’s counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them with
first-class postage prepaid, or by delivery to the third-party commercial carrier for
delivery with in 3 calendar days. (Delivered in person).
The names and addresses of those served are as follows:
Joseph A. Mengacci Office of Corporation Counsel 236 Grand Street 3rd FI
Watebury, CT 06702
jmengacci@waterburyct.org
Daniel J.. Foster Office of Corporation Counsel 236 Grand Street 3rd FI Waterbury,
CT 06702

dfoster@waterburyct.org

I declare under penalty of perjury that the foregoing is true and correct.
Executed on 11 SEPTEMBER 2021

RECEIVED
SEP 2 1 2021

ERIC WESTRY-PPO SE

34

